Report No. D-2011-098               August 15, 2011





          Defense Finance and Accounting Service 

           Needs to Improve Controls Over the 

            Completeness and Accuracy of the 

                Cash Management Report

Additional Copies
To obtain additional copies of this report, visit Web site of the Department of Defense Inspector
General at http://www.dodig.mil/audit/reports or contact the Secondary Reports Distribution
Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CMR                           Cash Management Report
DFAS                          Defense Finance and Accounting Service
FBWT                          Fund Balance with Treasury
HQARS                         Headquarters Accounting and Reporting System
LOA                           Line of Accounting
NSA                           National Security Agency
ODO                           Other Defense Organization
OSD                           Office of the Secretary of Defense
PBAS                          Program Budget Accounting System
TI                            Treasury Index
 
                                    INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON, VIRGINIA 22202-4704
 
                                                  
                                                                                 August 15, 2011

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               DIRECTOR, FINANCIAL IMPROVEMENT AND AUDIT
                 READINESS, UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)

SUBJECT: Defense Finance and Accounting Service Needs to Improve Controls Over the
          Completeness and Accuracy of the Cash Management Report (Report No.
          D-2011-098)

We are providing this report for your information and use. The Cash Management Report was
not complete or accurate. We identified deficiencies in the Cash Management Report that
significantly undermine the reliability of the Cash Management Report as a reconciliation tool
and negatively affect the Other Defense Organizations’ ability to obtain a favorable financial
statement audit opinion. As of September 30, 2009, DoD reported $80.3 billion in Fund Balance
with Treasury on the Other Defense Organizations’ General Fund Balance Sheet. We considered
management comments on a draft of the report in preparing the final report.

Comments on the draft of this report conformed to the requirements of the DoD Directive 7650.3
and left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




                                             Amy J. Frontz
                                             Principal Assistant Inspector General
                                              for Auditing




 
 
Report No. D-2011-098 (Project No. D2010-D000FA-0097.000)                             August 15, 2011


               Results in Brief: Defense Finance and
               Accounting Service Needs to Improve
               Controls Over the Completeness and
               Accuracy of the Cash Management Report
                                                         Balance with Treasury accounts. This has a
What We Did                                              significant negative effect on an ODO’s ability to
We assessed the completeness and accuracy of             obtain a favorable financial statement audit
the Cash Management Report. This is the first of         opinion unless adequate compensating controls
two reports relating to the reconciliation of Fund       are implemented.
Balance with Treasury for the Other Defense
Organizations (ODOs). As of September 30,                What We Recommend
2009, DoD reported $80.3 billion in Fund                 DFAS Indianapolis addressed some of the
Balance with Treasury on the ODO General                 deficiencies identified during this audit. The
Fund Balance Sheet.                                      Director, DFAS Indianapolis should:
                                                         • implement written procedures to reconcile
What We Found                                              variances between the Cash Management
The Cash Management Report was not complete                Report and the U.S. Treasury,
or accurate. Specifically, the Director, Defense         • establish an integrated working group to
Finance and Accounting Service (DFAS)                      resolve issues affecting the completeness and
Indianapolis did not attribute approximately               accuracy of the Cash Management Report, and
$10.5 billion in transactions to the ODO                 • research and correct transactions held in
responsible for reconciling and accounting for             suspense accounts in a timely manner.
the transactions. This occurred because:
• DFAS Indianapolis did not properly research            The Director, Financial Improvement and Audit
  and resolve variances on a regular and                 Readiness, Under Secretary of Defense
  recurring basis,                                       (Comptroller) should monitor the progress of the
• ODO submitters did not always report                   integrated working group and ensure all
  transactions to DFAS Indianapolis with valid           personnel responsible for reporting ODO
  lines of accounting, and                               transactions to DFAS Indianapolis are fully
• DFAS Indianapolis did not establish a process          participating.
  for communicating with the ODO submitters.
                                                         Management Comments and
As a result, the ODOs reconciled their Fund              Our Response
Balance with Treasury general ledger accounts to         We received comments from the Director, DFAS
the Cash Management Report, which in                     Indianapolis and the Deputy Chief Financial
aggregate, did not match the amounts reported by         Officer, Office of the Under Secretary of
the U.S. Treasury. Because the ODOs must rely            Defense (Comptroller). All comments were fully
on the amounts on the Cash Management Report             responsive to the recommendations. Therefore,
as a control total for reconciling to the U.S.           no additional comments are required. Please see
Treasury, these unreconciled variances seriously         the recommendations table on the back of this
undermine the reliability of the Cash                    page.
Management Report as a reconciliation tool and
impede the auditability of the ODO Fund
                                                     i
Report No. D-2011-098 (Project No. D2010-D000FA-0097.000)           August 15, 2011

  Recommendations Table

            Management                   Recommendations     No Additional Comments
                                        Requiring Comment              Required
  Director, Defense Finance and                             1.a, 1.b, 1.c, 1.d, 1.e, 1.f
  Accounting Service Indianapolis
  Director, Financial Improvement                           2
  and Audit Readiness, Under
  Secretary of Defense (Comptroller)




                                            ii
Table of Contents

Introduction                                                                  1


      Objective                                                               1

      Background                                                              1

      Review of Internal Controls                                             4


Finding. The Cash Management Report was Incomplete and Inaccurate             6


      Effect of an Incomplete and Inaccurate Cash Management Report           6

      U.S. Treasury Variances Need to be Reconciled                           7

      Transactions Need to be Charged to an Other Defense Organization        9

      Suspense Accounts Need to be Researched and Resolved                   11 

      Adequacy of Other Defense Organizations’ Fund Balance with Treasury

       Reconciliations                                                       12 

      DFAS Indianapolis Efforts to Resolve Deficiencies                      12 

      Recommendations, Management Comments, and Our Response                 14 


Appendix. Scope and Methodology                                              17 


Management Comments

      Defense Finance and Accounting Service Indianapolis                    19 

      Financial Improvement and Audit Readiness, Office of the Under

        Secretary of Defense (Comptroller)                                   23 

 
Introduction
Objective
The audit objective was to assess the completeness and accuracy of the Cash Management
Report (CMR) and determine whether an adequate audit trail exists to enable a transaction-level
Fund Balance with Treasury (FBWT) reconciliation. In addition, it was to assess the Other
Defense Organizations (ODOs) FBWT reconciliation process. This is the first of two reports
relating to the reconciliation of FBWT for the ODOs. This report addresses the completeness
and accuracy of the CMR. The second report will include our assessment of the adequacy of
audit trails and will address the ODOs FBWT reconciliation processes.

Background
FBWT is an asset account that reflects the available budgetary spending authority of a Federal
agency. At the agency level, FBWT is an accumulation of the transactions recorded in the U.S.
Government Standard General Ledger Account 1010, “Fund Balance with Treasury,” and any
related subaccounts. The following are typical transactions that affect an agency’s FBWT
general ledger account.

   •	 Appropriations increase FBWT. They are the statutory authority to incur obligations and
      to make payments out of the U.S. Treasury. They are subject to limitations that restrict
      the period of availability of the funds.
   •	 Collections increase FBWT. The three types of collections are receipts, reimbursements,
      and refunds.
   •	 Disbursements reduce FBWT. Disbursements are payments to individuals or

      organizations for goods furnished or services rendered. They can also be made to

      transfer funds from one appropriation or fund to another. 


As of September 30, 2009, DoD reported $80.3 billion in FBWT on the ODO General Fund
Balance Sheet. This represented 94.5 percent of the Total Intragovernmental Assets and
68.9 percent of the Total Assets reported on the ODO General Fund Balance Sheet. In addition,
the $80.3 billion reported in FBWT on the ODO General Fund Balance Sheet represented
approximately 8.5 percent of the Total Intragovernmental Assets and 4.5 percent of the Total
Assets reported on the DoD Agency-Wide Balance Sheet.

FBWT Reconciliation Requirements
The reconciliation of the FBWT account is a key internal control process to help identify
unauthorized and unrecorded transactions. Timely and effective reconciliations decrease the risk
of fraud, waste, and mismanagement of funds and enhance the Government’s ability to monitor
budget execution. The Treasury Financial Manual, volume 1, part 2, chapter 5100, “Reconciling
Fund Balance with Treasury Accounts,” October 1999, requires that agencies reconcile their
FBWT accounts on a regular basis to ensure the integrity and accuracy of financial report data.
Specifically, an agency’s FBWT reconciliation should include a comparison of transactions at a




                                               1

level of detail sufficient for specific identification of differences to establish that the entity’s
FBWT general ledger accounts and the corresponding balance in the U.S. Treasury accounts are
accurately stated.

DoD Regulation 7000.14-R, “Financial Management Regulation,” volume 4, chapter 2,
“Accounting for Cash and Fund Balances with Treasury,” December 2009, requires that agencies
explain any discrepancies between the FBWT in their general ledger accounts and the
corresponding balance in the U.S. Treasury accounts. However, I TFM 2-5100, “A Supplement
to the Treasury Financial Manual,” November 1999, prohibits agencies from arbitrarily adjusting
their FBWT accounts. Along with the I TFM 2-5100, the Financial Management Regulation
states that agencies should maintain detailed reconciliation worksheets that, if needed, can be
reviewed by management, auditors, or the U.S. Treasury.

The Other Defense Organizations
ODOs are entities authorized by the Secretary of Defense to perform select consolidated support
and service functions to the DoD on a Department-wide basis. These support and service
functions include providing military intelligence to the warfighter, defending the U.S. against
enemy ballistic missiles, providing the DoD enterprise infrastructure, and maintaining the
technological superiority of the U.S. military. ODOs are included in U.S. Treasury Index
(TI) 97, an aggregate account that does not provide identification of the separate ODOs sharing
the U.S. Treasury account. 1 Since there are 54 individual ODO general fund entities comprising
TI 97, each ODO’s fund balance in the U.S. Treasury account is indistinguishable from the fund
balances of other ODOs. As a result, the DoD uses unique codes, called limits, to identify,
manage, and report the financial activity of each individual ODO. For U.S. Treasury
reconciliation purposes, the balances of the TI 97 limits must be added together and reconciled to
the balance in the corresponding U.S. Treasury account.

Defense Finance and Accounting Service and the Cash
Management Report
Defense Finance and Accounting Service (DFAS) Indianapolis uses a departmental system
called Headquarters Accounting and Reporting System (HQARS) to receive, validate, and
consolidate budget execution, expenditure, and general ledger balances for the ODOs. The
information passes through the HQARS edit tables to check for invalid appropriations, duplicate
inputs, and line of accounting (LOA) 2 errors. Among other things, DFAS Indianapolis uses the
information from HQARS and funding information contained in the Program Budget and
Accounting System 3 (PBAS) to create the CMR on a monthly basis.



1
  The U.S. Treasury maintains and reports FBWT at the appropriation level to include only the TI, fiscal year, and

basic symbol. The fiscal year designates the years the funds are available for obligation. The basic symbol

identifies the types of funds being used.

2
  The fiscal year and basic symbol, when in conjunction with the limit, represent the basic line of accounting for

ODO transactions.

3
  DoD fund managers receive funding through U.S. Treasury Appropriation Warrants and non-expenditure transfers.

The fund managers then load the funding amounts into PBAS and release the funding to the ODOs through Funding 

Authorization Documents.



                                                        2

The CMR is similar to the account summary that a commercial bank reports on a customer’s
individual monthly bank statement. Unlike a monthly bank statement, the CMR does not contain
a list of the individual transactions charged to the account during the month. Instead, the CMR
reports summary amounts for each appropriation at the fiscal year, basic symbol, limit level. The
ODOs use the amounts on the CMR as a control total for reconciling to the U.S. Treasury. The
ending FBWT amounts reported on the CMR for each appropriation are the sum of the beginning
FBWT amounts, current fiscal year funding issued through Program Budget Accounting System,
and the disbursement and collection transactions processed during the current fiscal year-to-date.
If an appropriation has been open for more than one year, the ending FBWT amount will contain
funding, disbursement, and collection transactions from multiple fiscal years. Figure 1 shows the
December 2009 CMR for the Defense Information Systems Agency.

Figure 1. Example of the Cash Management Report




*The total amounts in Figure 1 may not sum due to rounding errors.
Note: Figure 1 is an excerpt from the December 2009 CMR, which was provided by DFAS Indianapolis personnel.

Report on Budget Execution and Trial Balance Adjustments
Each accounting office supporting the ODOs prepares a Report on Budget Execution and
Budgetary Resources (SF 133) 4 based on the data reported in the ODO’s accounting records.
The accounting office submits the SF 133 to DFAS Indianapolis. DFAS Indianapolis compares
disbursement and collection amounts on the SF 133 to the corresponding amounts reported on
the CMR for that specific ODO. DFAS Indianapolis then processes an adjustment to force the
amounts reported on the SF 133 to agree with the disbursement and collection amounts reported
on the CMR. The flowchart in Figure 2 shows the SF 133 adjustment process.




4
 The SF 133 provides the budgetary resources, obligation, disbursement, and collection data reported in the
accounting records.


                                                         3

                            Figure 2. SF 133 Adjustment Process



         ODO                     Unadjusted                            CMR
       Accounting                 SF 133            Compare
        Records



                                                    Undistributed                 Adjusted
                                                     Adjustment                    SF 133




The accounting offices also prepare trial balances based on the data in the ODO’s accounting
records and submits the trial balances to DFAS Indianapolis. DFAS Indianapolis compares
disbursement and collection amounts on the ODO’s trial balances to corresponding amounts on
the adjusted SF 133s. DFAS Indianapolis processes adjustments to force the amounts reported
on the trial balances to agree with the amounts reported on the adjusted SF 133s. DFAS
Indianapolis consolidates all of the individual adjusted trial balances to produce the ODO
General Fund financial statements. The flowchart in Figure 3 shows the trial balance adjustment
process.
                           Figure 3. Trial Balance Adjustment Process


         ODO                     Unadjusted                         Adjusted SF
       Accounting                  Trial            Compare            133
        Records                   Balance



                                                    Trial Balance                 Adjusted
                                                     Adjustment                    Trial
                                                                                  Balance




                                                                                   Financial
                                                                                  Statements




Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” July 29, 2010,
requires DoD organizations to establish a Managers’ Internal Control Program to identify and
promptly correct ineffective internal controls, and when warranted, establish internal controls.
We identified internal control weaknesses in the DFAS CMR process. Internal controls were not


                                               4

adequate to ensure that the CMR was complete and accurate. Specifically, DFAS Indianapolis
did not properly research and resolve amounts that the CMR did not charge to a specific ODO on
a regular and recurring basis; ODO submitters did not report transactions to DFAS Indianapolis
with valid LOAs; and DFAS Indianapolis did not establish a process for communicating with
ODO submitters to resolve outstanding and emerging issues in the reporting process. We will
provide a copy of the report to the senior official responsible for DFAS internal controls.




                                              5

Finding. The Cash Management Report was
Incomplete and Inaccurate
The Cash Management Report (CMR) was not complete or accurate. Specifically, the CMR did
not attribute approximately $10.5 billion in transactions to the Other Defense Organizations
(ODOs) responsible for reconciling and accounting for the transactions. The $10.5 billion
consisted of:

      $9.03 billion in variances between the amounts reported on the CMR and the amounts
       reported by the U.S. Treasury, of which $517 million existed prior to October 2004,
      $704.5 million in disbursements and collections reported on the CMR that were not
       charged to the specific ODOs that were responsible for the transactions, and
      $749.1 million in disbursement and collection transactions that Defense Finance and
       Accounting Service (DFAS) Indianapolis did not include on the CMR because the
       transactions were being held in suspense accounts as a result of not having the necessary
       information to properly record the transactions.

These deficiencies occurred because DFAS Indianapolis did not establish processes, as required
by the U.S. Treasury, to properly research and resolve amounts that the CMR did not charge to a
specific ODO on a regular and recurring basis; ODO submitters did not report transactions to
DFAS Indianapolis with valid Lines of Accounting (LOAs), which are necessary to accurately
charge the ODO responsible for reconciling and accounting for the transactions; and DFAS
Indianapolis did not establish a process for communicating with ODO submitters to resolve
outstanding and emerging issues in the reporting process. Because the ODOs use the amounts on
the CMR as a control total for reconciling to the U.S. Treasury, these unresolved variances
undermine the reliability of the CMR as a Fund Balance with Treasury (FBWT) reconciliation
tool. In addition, FBWT is the largest line item on the ODO General Fund financial statements.
Therefore, until adequate compensating controls are implemented, these deficiencies will also
have a significant negative effect on an ODO’s ability to obtain a favorable financial statement
audit opinion.

Effect of an Incomplete and Inaccurate Cash Management
Report
The transactions for the 54 ODOs are commingled in the U.S. Treasury Index (TI) 97 account.
As a result, the ODOs cannot reconcile their FBWT general ledger accounts directly to amounts
reported by the U.S. Treasury. DFAS Indianapolis developed the CMR to allocate the U.S.
Treasury totals to the individual ODOs. The ODOs then use the amounts on the CMR as a
control total for reconciling to the U.S. Treasury. However, when added together, the amounts
reported on the CMR for the 54 ODOs do not match the amounts reported by the U.S. Treasury.
This means that some transactions reported to the U.S. Treasury were not reported on the CMR.
Because the U.S. Treasury does not track which ODO is responsible for the transactions recorded
in the TI 97 account, it is impossible to determine which ODO’s CMR amounts are incomplete
or inaccurate. As a result, even if an ODO was able to reconcile its FBWT general ledger
account to the CMR at the transaction-level, there is still a risk that the reconciliation did not


                                                6
include material amounts that should have been charged to their agency. An incomplete or
inaccurate FBWT reconciliation prevents unauthorized transactions from being detected, which
increases the risk of fraud, waste, and mismanagement.

U.S. Treasury Variances Need to be Reconciled
The CMR was not complete because DFAS Indianapolis did not establish adequate procedures to
reconcile and resolve approximately $9.03 billion in variances between amounts reported on the
CMR and amounts reported by the U.S. Treasury. Instead, DFAS Indianapolis posted
adjustments to the CMR to force the report to balance to amounts reported by the U.S. Treasury.
However, DFAS Indianapolis could not provide adequate reconciliations to identify the causes of
the variances or support the adjustments made to the CMR.

Forced-Balance Entries Required to Match U.S. Treasury
DFAS Indianapolis posts forced-balance entries to the CMR to bring the totals reported on the
CMR into agreement with the totals reported by the U.S. Treasury. The Headquarters
Accounting and Reporting System (HQARS) systematically totals the disbursement transactions
reported on the CMR for all ODOs to calculate the total disbursement transactions for each
appropriation at the fiscal year, basic symbol level. HQARS
performs a similar calculation for collection and funding       DFAS Indianapolis eliminates
transactions. HQARS then compares the CMR totals to the          any calculated variances by
total amounts reported by the U.S. Treasury. DFAS               posting forced-balance entries
Indianapolis eliminates any calculated variances by posting              to the CMR.
forced-balance entries to the CMR.5 Figure 4 shows how
HQARS calculates a CMR forced-balance entry to bring the total disbursements reported on the
CMR for the FY 2010, Operation and Maintenance (O&M) appropriation into agreement with
the amount reported by the U.S. Treasury.

        Figure 4. Calculation of the Limit 99SD CMR Forced-Balance Entry

     ODO 1 CMR
      Disbursements:
      FY 2010; O&M
      $1,000,000.00                                CMR Total                       U.S. Treasury Total
                                                    Disbursements:                  Disbursements:
         ODO 2 CMR
                                                    FY 2010; O&M                    FY 2010; O&M
          Disbursements:
                                                    $3,000,000.00                   $4,000,000.00
          FY 2010; O&M
          $1,500,000.00
            ODO 3 CMR
             Disbursements:                                   CMR Forced-Balance Entry
             FY 2010; O&M                                      Limit 99SD
             $500,000.00                                       $1,000,000




5
 The forced-balance entries are reported in the following limits on the CMR: 99SD for disbursement variances;
99SC for collection variances; 99UF for funding variances; and 99SA for disbursement, collection, and funding
variances from prior to October 2004.


                                                        7
Adequacy of Support for U.S. Treasury Variances
There were $8.52 billion in variances between the amounts reported on the December 2009
CMR and the amounts reported by the U.S. Treasury. Figure 5 shows the allocation of the
$8.52 billion in variances.

Figure 5. Variances between the Amounts Reported on the December 2009 CMR and the
Amounts Reported by the U.S. Treasury

             Limit                    Transaction Type                            Amount
                                                                                  (billions)
    99SD                        Disbursement                                           $.09
    99SC                        Collection                                              .03
    99UF                        Funding                                                8.40
     Total                                                                           $8.52

The variances shown in Figure 5 indicate that a difference exists between the amounts reported
on the CMR and the amounts reported by the U.S. Treasury. DFAS Indianapolis must perform a
reconciliation to determine whether there is a valid explanation for the variances or whether the
variances are the result of accounting errors. We requested that DFAS Indianapolis personnel
provide the detailed reconciliations to explain the variances and support the forced-balance
entries made to the amounts reported on the CMR. DFAS Indianapolis personnel acknowledged
that they could rarely resolve disbursement and collection variances reported in limits 99SD and
99SC at the limit level. They stated that they were unaware of any attempts to reconcile the
funding variances reported in limit 99UF. DFAS Indianapolis personnel also stated that the
variances between the CMR and the U.S. Treasury occurred because submitters either reported
the transactions:

      •	 to the U.S. Treasury with one period of availability 6 and reported the same transactions to
         DFAS Indianapolis with a different period of availability, or
      •	 to DFAS Indianapolis, but did not accurately establish the transactions as disbursements,
         refunds, receipts, or collections.

In order to ensure the amounts on the CMR reconcile
                                                              DFAS Indianapolis personnel
to the amounts reported by the U.S. Treasury, DFAS
                                                           acknowledged that they could rarely
Indianapolis personnel should develop and
                                                          reconcile disbursement and collection
implement written procedures to reconcile and
                                                          variances reported in limits 99SD and
resolve the variances reported in limits 99SD, 99SC,
                                                                  99SC at the limit level.
and 99UF on a monthly basis. In addition, DFAS
Indianapolis should maintain and be able to readily provide the detailed documentation
supporting the reconciliations, as required by the U.S. Treasury Financial Manual. Without a
detailed reconciliation of the variances, DFAS Indianapolis personnel has no assurance that the
CMR was not misstated by $8.52 billion. Therefore, any ODO that reconciles its ending FBWT


6
 Appropriations have a specified period of availability during which an agency may use the budget authority to incur
original obligations. The period of availability may be for a single fiscal year or for multiple fiscal years.


                                                         8

to the amounts charged to it on the CMR may be reconciling to incomplete amounts and
inaccurately adjusting its FBWT accounts.

Old U.S. Treasury Variances Have Not Been Resolved
In addition to the variances reported in limits 99SD, 99SC, and 99UF, the CMR reported a
$517 million variance in limit 99SA. Prior to October 2004, HQARS consolidated disbursement,
collection, and funding variances into one account, limit 99SA. DFAS personnel stated that the
variances in limit 99SA were inherited from former FBWT processes and have remained
unchanged. However, the variances, even if unchanged, represent a material amount of the
difference between the CMR and the U.S. Treasury ($517 million of the $9.03 billion). In
addition, the majority of the variances in limit 99SA are “no-year funds” which do not expire.
Therefore, there is no definitive time when these variances would cease to negatively impact the
reliability of the ODO FBWT accounts and the reliability of the CMR. DFAS Indianapolis
personnel stated that researching and resolving the variances reported in limit 99SA would be
extremely difficult because the variances were inherited from former processes and do not
expire. However, a proper reconciliation of limit 99SA
may potentially identify funding that could be available        DFAS Indianapolis personnel
for future spending. If DFAS Indianapolis cannot charge           stated that researching and
the variances in limit 99SA to the responsible ODO,            resolving  the variances reported
DFAS Indianapolis should coordinate with the Director,        in limit 99SA would be extremely
Financial Improvement and Audit Readiness, Office of            difficult because the variances
the Under Secretary of Defense (Comptroller) to develop           were inherited from former
a comprehensive plan for remediating the variances               processes  and do not expire.
reported in limit 99SA.

Transactions Need to be Charged to an Other Defense
Organization
The CMR was not accurate because DFAS Indianapolis did not establish adequate procedures to
reconcile and resolve $704.5 million of disbursement and collection transactions reported in the
undistributed limits. Undistributed limits are used to record transactions that do not have all of
the information necessary for HQARS to charge the transactions to one of the 54 ODOs on the
CMR. The transactions will remain in the undistributed accounts until they can be researched,
resolved, and charged to the ODO responsible for accounting for the transactions. Transactions
in the undistributed limits undermine the integrity of the CMR and the reliability of any attempts
to reconcile the FBWT general ledger accounts to the CMR. DFAS Indianapolis personnel
stated that the primary cause of the undistributed limits was that submitters reported transactions
to DFAS Indianapolis with invalid or unfunded LOAs.

Negative Effect of Undistributed Limits on the CMR
Transactions in the undistributed limits resulted in misstatements of the amounts reported on the
CMR. The December 2009 CMR reported $704.5 million of disbursement and collection




                                                 9
transactions in the undistributed limits. Reasons why transactions were reported in an
undistributed limit instead of to the limits for the 54 ODOs include:

    •	 Submitters reported transactions that did not contain a valid LOA or reported transactions
       with LOAs that have not been funded in the Program Budget Accounting System
       (PBAS).
    •	 Submitters reported transactions with an undistributed limit to, according to DFAS
       Indianapolis, avoid researching the transactions to identify the correct LOAs.
    •	 DFAS Indianapolis did not update the edit tables in HQARS in a timely manner.

Any transaction in an undistributed limit will directly result                     Transactions in the
in a misstatement because the transaction will not be                        undistributed limits undermine
charged to the ODO responsible for reconciling and                            the integrity of the CMR and
accounting for the transaction. Transactions in the                         the reliability of any attempts to
undistributed limits undermine the integrity of the CMR                       reconcile the FBWT general
and the reliability of any attempts to reconcile the FBWT                     ledger accounts to the CMR.
general ledger accounts to the CMR.

Primary Cause of Amounts in the Undistributed Limits
DFAS Indianapolis personnel stated that transactions were reported in the undistributed limits
primarily because submitters reported the transactions with either an invalid or unfunded LOA.
DFAS Indianapolis personnel further stated that DFAS Cleveland’s use of subheads, rather than
Office of the Secretary of Defense (OSD) limits, is a primary reason why transactions were
submitted with invalid or unfunded LOAs. 7 Because DFAS Cleveland disburses and collects on
behalf of the ODOs, TI 97 transactions submitted to DFAS Indianapolis with invalid LOAs will
not have sufficient information to charge the correct ODO and accurately report on the CMR.
Prior to March 2010, DFAS Cleveland submitted all ODO transactions to DFAS Indianapolis
with only the Navy subhead and a distribution file to convert the Navy subhead back to the
original OSD limit. DFAS Indianapolis then used the data in the “distribution file” to update the
edit tables in HQARS. If the distribution file contained an incorrect conversion or if DFAS
Cleveland did not report an accurate subhead, the transactions would default to an undistributed
limit.

In March 2010, to reduce the number of errors in the Navy subhead conversion process, DFAS
Cleveland converted the Navy subheads to OSD limits before reporting the transactions to DFAS
Indianapolis. Even though DFAS Cleveland began submitting the OSD limits in addition to the
Navy subheads in March 2010, DFAS Indianapolis personnel were not aware that DFAS
Cleveland was providing the OSD limits until we informed them of the change in July 2010.
DFAS Indianapolis personnel reviewed the updated file and determined that the inclusion of the
OSD limits was an improvement over the former process; however, they stated that the source




7
 OSD issues funding at the four digit limit level. DFAS Cleveland converted the funded OSD limit to a Navy
subhead to allow the Navy the ability to issue funding at the project level. The subhead must be converted back to
the original limit when reporting to OSD.


                                                        10

file provided by DFAS Cleveland still contained multiple errors. For example, the source file
converted various Navy subheads to limits that were not valid, funded OSD limits.

DFAS Indianapolis should establish an integrated working group to resolve any ongoing or
emerging issues affecting the completeness and accuracy of the CMR. The working group
should include representatives from all of the offices responsible for submitting the ODO
disbursement and collection transactions to DFAS Indianapolis to be reported on the CMR. The
group should be monitored by the Director, Financial Improvement and Audit Readiness, Office
of the Under Secretary of Defense (Comptroller), to ensure all representatives are fully
participating. In addition, DFAS Indianapolis should consistently communicate with DFAS
Cleveland to resolve all outstanding undistributed balances resulting from Navy subhead
conversions and to timely address any new problems that may occur.

Suspense Accounts Need to be Researched and Resolved
The CMR was not complete because it did not contain the transactions held in the TI 97 suspense
accounts. Suspense accounts are intended to temporarily hold disbursement and collection
transactions until the transactions’ proper appropriations are identified. If transactions in the
suspense accounts are not routinely researched and corrected, transactions will continue to
accumulate in the accounts making the likelihood of timely resolution more remote. DFAS
Indianapolis personnel attributed most of the transactions in the suspense accounts to the
National Security Agency (NSA). Failure to properly report and reconcile these transactions
undermines the reliability of both the CMR and the amounts reported in the ODO accounting
records.

Suspense Account Amounts Excluded from the CMR
The CMR did not contain approximately $749.1 million of disbursement and collection
transactions held in the TI 97 suspense accounts. The suspense accounts were used to record
transactions when the submitters did not provide all of the necessary information to assign the
transactions to the proper appropriation at the fiscal year, basic symbol level. Consequently,
DFAS Indianapolis could not report the amounts on the CMR and, therefore, was not able to
charge the transactions to the ODOs responsible for reconciling and accounting for the
transactions.

Primary Causes of Amounts in the ODO Suspense Accounts
DFAS Indianapolis personnel stated that $10.6 million of the transactions in the TI 97 suspense
accounts primarily resulted from timing differences and edit errors. DFAS Indianapolis
personnel attributed the remaining $738.5 million in suspense account balances to NSA and
stated that NSA personnel were taking the necessary steps to resolve the amounts in the suspense
accounts by June 2010. We confirmed with NSA personnel that they were responsible for the
majority of the transactions in the TI 97 suspense accounts. They stated that the transactions
were a result of an error in the NSA accounting system. According to NSA personnel, NSA
processed an adjustment in September 2010 to clear the accounts. NSA personnel also stated
that reducing the transactions in the TI 97 suspense accounts was a large undertaking and that
they are trying to finalize the reconciliations. To ensure transactions on the CMR are reported on
the CMR for FBWT reconciliation purposes, DFAS Indianapolis, with necessary support from


                                                11

the ODOs, should research and correct any transactions held in the suspense accounts in a timely
manner. 8 Failure to properly report and reconcile these transactions undermines the reliability of
both the CMR and the amounts reported in the ODO accounting records.

Previous Write-Offs of Amounts in the ODO Suspense Accounts
DFAS performed periodic write-offs for suspense account transactions that could not be resolved
because of insufficient supporting documentation. We requested that DFAS Indianapolis
personnel provide the dates and the amounts of suspense account write-offs that occurred within
the last 10 years. In response to our request, DFAS Indianapolis personnel provided
documentation showing that eight write-offs, totaling $84.8 million, occurred between July 2004
and September 2007. One of the write-offs, totaling $72.9 million, occurred in September 2007.
While the write-offs reduce the dollar value of the transactions recorded in the suspense
accounts, they do not ensure proper accounting of those transactions. When transactions are not
properly reported in the ODO accounting records, the reported amount of funding available for
agency operations will be misstated. Misstatements in available funding negatively impact the
reliability of the financial statements and put the ODOs at risk for committing Antideficiency
Act violations. Improved procedures for researching and correcting transactions in suspense
accounts should reduce the need for future write-offs of suspense account transactions.

Adequacy of Other Defense Organizations’ Fund Balance
with Treasury Reconciliations
This audit report addresses the summary amounts reported on the CMR. Therefore, we focused
on the DFAS Indianapolis processes used for creating the CMR and ensuring the control totals
on the CMR were being attributed to an ODO. We will issue a separate report on our assessment
of the adequacy of audit trails, the adequacy of the ODOs’ FBWT reconciliation processes, and
any improvements that DFAS Indianapolis has made in the processes used to retrieve the detail
transactions supporting the summary amounts reported on the CMR.

DFAS Indianapolis Efforts to Resolve Deficiencies
DFAS Indianapolis began to address the deficiencies identified in this report after we briefed
them in July 2010. DFAS Indianapolis stated that they have:

    •	 Determined that $2.5 billion in variances (Limit 99UF) between the funding reported by
       the U.S. Treasury and the funding reported on the CMR was a result of the U.S.
       Government operating under a Continuing Resolution in December 2009. 9
    •	 Identified and corrected a $104.2 million error from September 1999 that affected both
       the U.S. Treasury variances (Limit 99SA) and the transactions reported in the
       undistributed limits (Limit 9999).



8
  DFAS Indianapolis’ ability to research and correct transactions held in suspense accounts is contingent upon the
sensitivity of the accounting data.
9
  A Continuing Resolution is a type of appropriations legislation used by the United States Congress to fund
government agencies if a formal appropriations bill has not been signed into law by the end of the Congressional
fiscal year.


                                                         12

   •	 Discovered that the CMR reported transactions that were being held in a burdensharing
      cash account, which should be excluded from the CMR. DFAS Indianapolis’ correction
      of this error decreased the undistributed limits (Limits 9999, F999, and N999) by
      $459.2 million.

In addition to the $2.5 billion in funding variances that DFAS Indianapolis determined was
caused by the Continuing Resolution, DFAS Indianapolis stated that they identified funding data
that was sent to the U.S. Treasury after the CMR had been generated for that month, causing
billions of dollars in funding variances between the U.S. Treasury and the CMR. To ensure all
funding data is captured each month on the CMR, DFAS Indianapolis postponed the date that the
CMR is generated. DFAS Indianapolis personnel stated that by delaying the date they produce
the CMR and identifying the $2.5 billion in variances caused by the Continuing Resolution, they
should be able to eliminate a significant portion of the funding variances between the U.S.
Treasury and the CMR (Limit 99UF). The commitment by DFAS Indianapolis to promptly
resolve the deficiencies we identified during the audit will enhance the completeness and
accuracy of the summary amounts reported on the CMR. DFAS Indianapolis stated that, as of
February 2011, they reduced the U.S. Treasury variance to approximately $1.1 billion, the
undistributed limits to $142.6 million, and the transactions reported in the ODO suspense
accounts for more than 30 days to $443 thousand. Implementing the recommendations in this
report should further improve the reliability of the CMR as a FBWT reconciliation tool for the
ODOs. In addition, DFAS Indianapolis should report quarterly to the Director, Financial
Improvement and Audit Readiness, Office of the Under Secretary of Defense (Comptroller), on
its progress in resolving the deficiencies listed in this report.

Conclusion
The deficiencies identified in this report will continue unless DFAS Indianapolis develops
adequate controls over the ODO FBWT process. The amounts in variances and undistributed
limits primarily resulted because DFAS Indianapolis did not establish sufficient processes for
researching and resolving variances on a regular and recurring basis; ODO submitters did not
always report transactions with a valid LOA; and DFAS Indianapolis did not establish a process
for communicating with ODO submitters to resolve outstanding and emerging issues in the
reporting process. As a result, the ODOs reconciled their FBWT general ledger accounts to the
CMR; which in aggregate, did not match the amounts reported by the U.S. Treasury. Despite
DFAS Indianapolis’ notable efforts to resolve the identified deficiencies, there are still
$1.24 billion in funding, disbursement, and collection transactions that are not being charged to
an ODO. Therefore, even if the ODOs reconciled to the complete universes of disbursement,
collection, and funding transactions supporting the summary amounts on the CMR, the ODOs
still risk reconciling to unreliable amounts. This ultimately undermines the reliability of the
CMR as a reconciliation tool and impedes the auditability of the ODO FBWT accounts; which
will have a significant negative effect on an ODO’s ability to obtain a favorable financial
statement audit opinion unless adequate compensating controls are implemented.




                                               13

Recommendations, Management Comments, and
Our Response
1. We recommend that the Director, Defense Finance and Accounting Service
Indianapolis:

       a. Develop and implement written procedures to routinely reconcile and resolve the
variances between amounts reported on the Cash Management Report and amounts
reported by the U.S. Treasury.

Director, Defense Finance and Accounting Service Indianapolis
Comments
The Director, Defense Finance and Accounting Service Indianapolis agreed with our
recommendation. The Defense Finance and Accounting Indianapolis is developing written
procedures to routinely reconcile and resolve the variances between the amounts reported on the
Cash Management Report and the amounts reported by the U.S. Treasury. In addition, the
Defense Finance and Accounting Service Indianapolis has researched and is documenting the
funding variances which are primarily attributable to “Appropriations Unallocated” and has also
changed the process for reporting funding on the CMR. Defense Finance and Accounting
Service Indianapolis estimated that it will fulfill this recommendation by October 31, 2011.

       b. Coordinate with the Director, Financial Improvement and Audit Readiness,
Office of the Under Secretary of Defense (Comptroller) to develop a comprehensive plan
for remediating the U.S. Treasury variances that occurred prior to FY 2005.

Director, Defense Finance and Accounting Service Indianapolis
Comments
The Director, Defense Finance and Accounting Service Indianapolis agreed with our
recommendation. Defense Finance and Accounting Service Indianapolis Operations will
coordinate with the Director, Financial Improvement and Audit Readiness, Office of the Under
Secretary of Defense (Comptroller) to develop a comprehensive plan for remediating the U.S.
Treasury variances that occurred prior to FY 2005. Defense Finance and Accounting Service
Indianapolis estimated that it will fulfill this recommendation by October 31, 2011.

        c. Establish an integrated working group to resolve any ongoing or emerging issues
affecting the completeness and accuracy of the Cash Management Report.

Director, Defense Finance and Accounting Service Indianapolis
Comments
The Director, Defense Finance and Accounting Service Indianapolis agreed with our
recommendation. Defense Finance and Accounting Service Indianapolis will work with the
other Defense Finance and Accounting Service sites to establish an integrated working group to
resolve any ongoing or emerging issues affecting the completeness and accuracy of the Cash
Management Report. Defense Finance and Accounting Service Indianapolis estimated that it
will fulfill this recommendation by October 31, 2011.


                                              14

       d. Develop a process for communicating with Defense Finance and Accounting
Service Cleveland to resolve all outstanding undistributed balances resulting from Navy
subhead conversions and to timely address any new problems that may occur.

Director, Defense Finance and Accounting Service Indianapolis
Comments
The Director, Defense Finance and Accounting Service Indianapolis agreed with our
recommendation and stated that additional communication with Defense Finance and
Accounting Service Cleveland will be required to alleviate the outstanding undistributed
balances resulting from Navy subhead conversions. Defense Finance and Accounting Service
Indianapolis will address these issues in the CMR working group discussed in Recommendation
1.c. Defense Finance and Accounting Service Indianapolis estimated that it will fulfill this
recommendation by April 30, 2012.

      e. Research and correct, with the necessary support from the Other Defense
Organizations, any transactions held in suspense accounts in a timely manner.

Director, Defense Finance and Accounting Service Indianapolis
Comments
The Director, Defense Finance and Accounting Service Indianapolis agreed with our
recommendation and stated that Defense Finance and Accounting Service Indianapolis will
ensure that procedures are in place to research, monitor, provide supporting documentation, and
inform the customer of any transactions held in suspense in a timely manner. In addition,
Defense Finance and Accounting Service plans to design a report that will have the ability to
identify and age transactions that pass or fail applicable edit checks. Defense Finance and
Accounting Service Indianapolis estimated that it will fulfill this recommendation by April 30,
2012.

       f. Report quarterly to the Director, Financial Improvement and Audit Readiness,
Office of the Under Secretary of Defense (Comptroller) on its progress in resolving the
deficiencies listed in this report.

Director, Defense Finance and Accounting Service Indianapolis
Comments
The Director, Defense Finance and Accounting Service Indianapolis agreed with our
recommendation and stated that the Defense Finance and Accounting Service Indianapolis will
report quarterly to the Director, Financial Improvement and Audit Readiness, Under Secretary of
Defense (Comptroller) on its progress in resolving the deficiencies identified in this report.
Defense Finance and Accounting Service Indianapolis estimated that it will fulfill this
recommendation by October 31, 2011.

Our Response
The comments from the Director, Defense Finance and Accounting Service Indianapolis are
responsive, and the planned actions meet the intent of the recommendations.



                                               15

2. We recommend that the Director, Financial Improvement and Audit Readiness, Under
Secretary of Defense (Comptroller) monitor the progress of the integrated working group
and ensure personnel responsible for reporting Other Defense Organization’s transactions
to Defense Finance and Accounting Service Indianapolis are fully participating.

Deputy Chief Financial Officer, Office of the Under Secretary of
Defense (Comptroller) Comments
The Deputy Chief Financial Officer, Office of the Under Secretary of Defense (Comptroller)
agreed with our recommendation and stated that the Office of the Under Secretary of Defense
(Comptroller) is committed to ensuring that the Defense Finance and Accounting Service
Indianapolis has the cooperation necessary to fulfill its obligation to provide a sustainable
process for reconciling the Cash Management Report to the U.S. Treasury. The Office of the
Under Secretary of Defense (Comptroller) will direct DFAS Indianapolis to draft a schedule of
key milestones, assist with evaluating the processes that are recommended, and help with
ensuring relevant personnel are fully engaged. The Office of the Under Secretary of Defense
(Comptroller) estimated that it will fulfill this recommendation by October 31, 2011.

Our Response
The comments from the Deputy Chief Financial Officer, Office of the Under Secretary of
Defense (Comptroller) are responsive, and the planned actions meet the intent of the
recommendation.




                                              16

Appendix A. Scope and Methodology
We performed this financial audit from January 2010 to June 2011 in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Evidence was
obtained through the following:

       •	 We reviewed DoD, U.S. Treasury, and DFAS guidance related to the reconciliation of
          the Fund Balance with Treasury general ledger account.

       •	 We reviewed the FY 2009 ODO General Fund and the DoD Agency-Wide Financial
          Statements to determine what percentage of the assets reported on the Agency-Wide
          financial statements were attributable to the ODO FBWT line item.

       •	 We interviewed DFAS Indianapolis personnel to gain an understanding of the
          processes affecting the CMR. Specifically, we interviewed personnel responsible for
          processing, reconciling, and reporting ODO disbursement and collection transactions.
          In addition, we interviewed personnel responsible for recording ODO transactions in
          the accounting system.

       •	 We calculated the total dollar value of the adjustments that DFAS Indianapolis
          prepared to bring the amounts reported on the CMR into agreement with the amounts
          reported by the U.S. Treasury. We then determined whether DFAS Indianapolis
          personnel could provide adequate documentation to support the adjustments.

       •	 We discussed with DFAS Indianapolis personnel the reasons why transactions are
          reported in the undistributed limits. In addition, we calculated the dollar value of
          transactions reported in the undistributed limits as of December 31, 2009.

       •	 We met with DFAS Indianapolis and NSA personnel to discuss the transactions
          reported in the ODO suspense accounts as of December 31, 2009.

       •	 We interviewed DFAS Cleveland personnel to obtain an understanding of the DFAS
          Cleveland processes that impact ODO transactions.

Use of Computer-Processed Data
We relied on computer processed data consolidated by HQARS. HQARS is a legacy system
scheduled for replacement in FY 2020. DFAS Indianapolis uses HQARS to receive, validate,
and consolidate TI 97 budget execution, expenditure, and general ledger balances for the ODOs.
DFAS Indianapolis personnel use the data in HQARS to create the CMR. We judgmentally
selected appropriations reported on the CMR and verified that DFAS Indianapolis could support
the HQARS outputs (summary control totals) with detailed transactions. We did not perform


                                                17

any further testing to ensure the detailed transactions were accurately recorded. However, the
computer processed data was reliable for the purpose of our audit objective.

Prior Coverage
No prior coverage has been conducted on the CMR during the last five years.




                                               18

Defense Finance and Accounting Service Indianapolis
Comments




                   Click to add JPEG file




                                  19
Click to add JPEG file




               20
Click to add JPEG file




               21
Click to add JPEG file




               22
Office of the Under Secretary of Defense (Comptroller)
Comments




                    Click to add JPEG file




                                   23
Click to add JPEG file




               24
.




.
